iw
I

C@OCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 19-783
NATHAN VAN BUREN,
Petitioner,

Vv.
UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT OF SERVICE

Legal Briefs

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 8th day of July, 2020, send out from
Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF PROFESSOR ORIN S. KERR AS AMICUS CURIAE IN
SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by third-party
commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
ORIN S. KERR
Counsel of Record
334 North Addition
Berkeley, CA 94720
(510) 664-5257
orin@orinkerr.com

Subscribed and sworn to before me this 8th day of July, 2020. :
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

é GENERAL NOTARY State of Nebraska
RENEE J. GOSS 9.

Notary Public

 

Oude hk, Gh ke
 

Attorneys for Petitioner

Jeffrey L. Fisher Stanford Law School Supreme Court Litigation Clinic (650) 724-7081
Counsel of Record 559 Nathan Abbott Way
Stanford, CA 94305

jlfisher@law.stanford.edu

Party name: Nathan Van Buren

 

 

Attorneys for Respondent

Noel J. Francisco Solicitor General (202) 514-2217
Counsel of Record United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOVJ.gov

Party name: United States

 

 
